No.

JAMAAL HOWARD, PETITIONER
V.

BOBBY LUMPKIN, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION, RESPONDENT

PROOF OF SERVICE
TO THE CLERK OF THE SUPREME COURT OF THE UNITED STA TES:
I do hereby certify, pursuant to Supreme Court Rules 29.4(a) and 29.5(b) that three
copies of the Petition for Writ of Certiorari to the Court of Appeals for the Fifth Circuit and a
copy of the Motion to Proceed Jnforma pauperis were served by postage prepaid, first class mail
to Katherine Hayes, Assistant Attorney General , P.O. Box 12548, Austin , Texas 78711; and one
copy to Mr. Jamaal Howard,# 999383 , Polunsky Unit, 3872 FM 350 Rd. South, Livingston,
Texas, on October 6, 2020.

RESPECTFULLY SUBMITTED,

~~s.h

DonBailey

~

Attorney for Petitioner
309 N. Willow
Sherman, Texas 75090
(903) 892-9185

